No. 20-297
In the

Supreme Court of the United States
TransUnion LLC,
Petitioner,
v.
Sergio L. Ramirez,
Respondent.
On Writ of Certiorari to the United States
Court of A ppeals for the Ninth Circuit

BRIEF OF OWNER-OPERATOR
INDEPENDENT DRIVERS ASSOCIATION,
INC. AS AMICUS CURIAE IN
SUPPORT OF RESPONDENT
Charles R. Stinson
Counsel of Record
Paul D. Cullen, Jr.
Gregory R. Reed
The Cullen Law Firm, PLLC
1101 30th Street NW, Suite 300
Washington, D.C. 20007
(202) 944-8600
crs@cullenlaw.com

March 10, 2021
302727

Counsel for Owner-Operator
Independent Drivers
Association, Inc.

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

T he Fa i r Cr e d it R ep or t i ng A c t
protects individuals from informational
and reputational injuries by imposing
procedural requirements on consumer
reporting agencies . . . . . . . . . . . . . . . . . . . . . . . . . 4

II. C on s u m e r r ep or t i n g s i g n i f i c a nt ly
impacts OOIDA’s members’ professional
opportunities every day . . . . . . . . . . . . . . . . . . . . . 6
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 8
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
I.

The FCRA establishes demanding procedural
requirements of consumer reporting
agencies to provide expansive protections
for individuals from substantial risk of harm
resulting from inaccurate information  . . . . . . . . 9

ii
Table of Contents
Page
A.	In enacting the FCRA, Congress
i nt ended t o pr ot ec t con su mer s
by hold i ng consu mer repor t i ng
agencies accountable through strict
procedural requirements  . . . . . . . . . . . . . . . 9
B. V i o l a t i o n s o f F C RA a c c u r a c y
requ i rement s cause A r t icle III
injur ies where disclosure of the
inaccurate information could cause
concrete harm . . . . . . . . . . . . . . . . . . . . . . . . 12
1.	Statutory violations causing risk
of real harm satisfy Article III’s
injury requirements whether
additional, tangible harm results
from the violations . . . . . . . . . . . . . . . . . 12
2. Violations of the FCRA’s accuracy
requirements cause a risk of
real harm to the subjects of the
inaccurate data sufficient for
	Article III standing  . . . . . . . . . . . . . . . 13
C. Current standing rules, applied by
the Ninth Circuit below, already
protect against the purported flood
of frivolous suits cited by Petitioner
and amici supporting Petitioner  . . . . . . . . 15

iii
Table of Contents
Page
II. Truck drivers are particularly vulnerable
to harm from false reporting . . . . . . . . . . . . . . . 19
A. Truck drivers are exposed to personal
reporting on a near-daily basis  . . . . . . . . . 19
B.	Adopting Petitioner’s interpretation
of st a nd i ng u nder the FCRA—
closing the cour ts until repor ts
are distributed—would undermine
the statute’s very purpose . . . . . . . . . . . . . . 22
III.	Additional consequential harm suffered by
one class member does not preclude Rule
23 typicality when the class suffers Article
	III injuries from statutory violations  . . . . . . . . 24
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Abbott Labs. v. Mead Johnson & Co.,
971 F.2d 6 (7th Cir. 1992) . . . . . . . . . . . . . . . . . . . . . . . 8
Amchem Products, Inc. v. Windsor,
521 U.S. 591 (1997)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Campbell v. Facebook, Inc.,
951 F.3d 1106 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . 18
Cortez v. Trans Union, LLC,
617 F.3d 688 (3d Cir. 2010) . . . . . . . . . . . . . . . . . . . . . 10
Dreher v. Experian Info. Sols., Inc.,
856 F.3d 337 (4th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 14
Guimond v. Trans Union Credit Info. Co.,
45 F.3d 1329 (9th Cir. 1995) . . . . . . . . . . . . . . .  5, 10, 11
In re Facebook, Inc. Internet Tracking Litig.,
956 F.3d 589 (9th Cir. 2020) . . . . . . . . . . . . . . . . . . . . 18
In re Google Inc. Cookie Placement Consumer
Priv. Litig.,
806 F.3d 125 (3d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 18
Lujan v. Defs. of Wildlife,
504 U.S. 555 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

v
Cited Authorities
Page
Mace v. Van Ru Credit Corp.,
109 F.3d 338 (1997) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Maverick Transp., LLC v.
U.S. Dep’t of Lab., Admin. Rev. Bd.,
739 F.3d 1149 (8th Cir. 2014), as corrected
(Jan. 17, 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 20
Owner-Operator Indep. Driver Ass’n, Inc. v.
USIS Commercial Servs., Inc.,
No. 04CV01384REBCBS, 2006 WL 2164661
(D. Colo. July 31, 2006) . . . . . . . . . . . . . . . . . . . . 6, 7, 20
Owner-Operator Indep. Drivers Ass’n, Inc. v.
U.S. Dep’t of Transp.,
211 F. Supp. 3d 252 (D.D.C. 2016), aff’d in part,
rev’d in part, 879 F.3d 339 (D.C. Cir. 2018) . . . . . .  17
Owner-Operator Indep. Drivers Ass’n, Inc. v.
U.S. Dep’t of Transp.,
879 F.3d 339 (D.C. Cir. 2018) . . . . . . . . . . . . . . . passim
Ramirez v. TransUnion LLC,
951 F.3d 1008 (9th Cir. 2020)  . . . . . . . . . . . . . . passim
Ramirez v. Trans Union, LLC,
No. 12-CV-00632-JSC, 2017 WL 5153280 (N.D.
Cal. Nov. 7, 2017), aff’d in part, vacated in part,
rev’d in part sub nom Ramirez v. TransUnion
LLC, 951 F.3d 1008 (9th Cir. 2020) . . . . . . . . . . . . . . 26

vi
Cited Authorities
Page
Register.com, Inc. v. Verio, Inc.,
356 F.3d 393 (2d Cir. 2004) . . . . . . . . . . . . . . . . . . . . . . 8
Robins v. Spokeo, Inc.,
867 F.3d 1108 (9th Cir. 2017) . . . . . . . . . . . 5, 13, 14, 21
Safeco Ins. Co. of Am. v. Burr,
551 U.S. 47 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Seamans v. Temple Univ.,
744 F.3d 853 (3d Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 10
Spokeo, Inc. v. Robins,
136 S. Ct. 1540 (2016)  . . . . . . . . . . . . . . . . . . . . . passim
Strubel v. Comenity Bank,
842 F.3d 181 (2d Cir. 2016) . . . . . . . . . . . .  12, 13, 14, 16
Summers v. Earth Island Inst.,
555 U.S. 488 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Van Patten v. Vertical Fitness Group, LLC,
847 F.3d 1037 (9th Cir. 2017) . . . . . . . . . . . . . . . . . . . 14
Constitutional Provisions
U.S. Const. art. III . . . . . . . . . . . . . . . . . . . . . . . . . . passim

vii
Cited Authorities
Page
Statutes & Legislative Materials
15 U.S.C. § 1681  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
15 U.S.C. § 1681(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
15 U.S.C. § 1681(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
15 U.S.C. § 1681a(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
15 U.S.C. § 1681b(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
15 U.S.C. § 1681e(b) . . . . . . . . . . . . . . . . . . . . . . . . . .  10, 11
15 U.S.C. § 1681g  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
15 U.S.C. § 1681g(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
15 U.S.C. § 1681g(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
15 U.S.C. § 1681m . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
47 U.S.C. § 227  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
49 U.S.C. § 31150(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  7, 19
Pub. L. No. 91-508 § 607(b), 84 Stat. 1131 (1970)  . . . . . 18
S. Rep. No. 91-517 (1969) . . . . . . . . . . . . . . . . . . . . 5, 10, 22

viii
Cited Authorities
Page
Rules
Fed. R. Civ. P. 23 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24, 27
Other Authorities
Corrected Appellants’ Brief, Owner-Operator Indep.
Drivers Ass’n, Inc. v. U.S. Dep’t of Transp.,
879 F.3d 339 (D.C. Cir. 2018), 2017 WL 1361799 . . 7, 27
Courtroom Minutes of Oral Argument, OwnerOperator Indep. Drivers Ass’n, Inc. v. U.S. Dep’t of
Transp., No. 19-5321 (D.C. Cir. Sept. 9, 2020) . . . . . .3
DAC Employ ment Hist or y Fi le,
Hi reRight , https: // w w w.h i rer ight .com /
transportation/solutions/verifications/dacreport-employment-history-file . . . . . . . . . . . . . . . . . 20
Eric Miller, Settlement Puts Spotlight on Background
Checks, Transport Topics (June 16, 2014, 1:30 AM),
https://www.ttnews.com/articles/settlementputs-spotlight-background-checks . . . . . . . . . . . . . . 21
Todd Dills & Max Heine, Red tape, deaf ears:
Criticism mounts of DataQs crash- and
inspection-info review system, Overdrive
(Feb. 15, 2021), https://www.overdriveonline.
com/regulations/article/15063803/criticism-ofdataqs-review-system-continues-to-rise . . . . . . . . . 21

1
INTEREST OF THE AMICUS CURIAE 1
T he O w ne r - O p e r at or I ndep endent D r i ve r s
Association, Inc. (“OOIDA”) is the largest international
trade association representing the interests of independent
owner-operators, small business motor carriers, and
professional truck drivers. OOIDA’s more than 150,000
members are professional drivers and small businessmen
and women located in all 50 states and Canada who
collectively own and operate more than 200,000 individual
heavy-duty trucks. Single-truck motor carriers represent
nearly half of the active motor carriers operated in the
United States. OOIDA actively promotes the views of
professional drivers and small business truckers through
its interaction with state and federal government agencies,
legislatures, courts, other trade associations, and private
businesses to advance an equitable and safe environment
for commercial drivers. OOIDA’s mission includes the
promotion and protection of the interests of independent
truckers, whether they are owner-operators, smallbusiness motor carriers, or professional truck drivers, on
any issue that might touch on their economic well-being,
their working conditions, or the safe operation of their
motor vehicles on the nation’s highways.
In addition to its affirmative, strategic litigation,
OOIDA routinely participates as amicus curiae before
1. Both parties filed blanket consents to briefs of amicus
curiae on December 23, 2020. No counsel for a party authored this
brief in whole or in part, and no such counsel made a monetary
contribution intended to fund the preparation or submission of
this brief. No person other than amicus curiae, its members, or
its counsel made a monetary contribution to its preparation or
submission.

2
federal Circuit Courts of Appeals and the United States
Supreme Court to advocate for the lawful classification of
drivers, the right to pursue independent owner-operator
and small-business motor carrier opportunities, the right
to freely participate in interstate commerce, and the
ability to enforce truckers’ rights in court.
Moreover, OOIDA was one of the plaintiffs2 in OwnerOperator Independent Drivers Association, Inc. v. U.S.
Dep’t of Transportation, 879 F.3d 339 (D.C. Cir. 2018)
(“OOIDA I”). The Ninth Circuit cited and distinguished
OOIDA I in the case below, and Petitioner cited OOIDA
I as in conflict with the Ninth Circuit’s decision. See
Ramirez v. TransUnion LLC, 951 F.3d 1008, 1028 (9th
Cir. 2020); Petition for Writ of Certiorari at 17, 23-24;
Reply Brief at 4-5 & n.1. Circuit Judge McKeown cited
OOIDA I as a case involving “analogous circumstances”
but conflicting with the Ninth Circuit’s holding. See
Ramirez, 951 F.3d at 1040 (McKeown Cir. J., concurring
in part & dissenting in part).
In OOIDA I, five drivers and OOIDA alleged that
the Federal Motor Carrier Safety Administration
(“FMCSA”) violated the Fair Credit Reporting Act’s
(“FCRA”) accuracy requirements with respect to its
driver reporting. 879 F.3d at 340. Through FMCSA’s
Pre-employment Screening Program, the government
collects personal driver information and sells it to
potential employers. Id. at 340-41. Each of those drivers
was accused of a safety violation; each went to state court
to have that safety violation dismissed or was adjudged
not guilty; and each notified FMCSA that its record of a
2. The individual plaintiffs were OOIDA members.

3
violation was inaccurate. FMCSA refused to remove those
records and continued to report to the public that those
individuals violated the law. Inaccurate reports for two
of the OOIDA I drivers had been distributed to potential
employers, but reports for the other three had only been
distributed to the drivers. Id. at 341.
In deciding whether the plaintiffs had standing to
bring an FCRA claim, the D.C. Circuit, in contrast to the
Ninth Circuit here, concluded that only the two drivers
about whom reports were distributed suffered concrete
Article III injuries. Id. at 346. Three other drivers’
claims were dismissed because their reports had not
been disseminated, and the period during which their
inaccurate information could have been disseminated
under FMCSA policies had expired. Id.3 The Court’s
decision in this case, therefore, could directly impact
OOIDA’s members’ ongoing litigation.
Resolving the Question Presented upon which
certiorari was granted could significantly impact OOIDA’s
ability to help its members enforce their FCRA and other
rights in court, through class actions and otherwise. Class
actions provide the most efficient vehicle for enforcing
many informational and regulatory rights that would
otherwise evade meaningful review but bear significantly
on truckers’ livelihoods. Owner-operator truck drivers
spend much of their lives on the road and make an average
3. On remand, the D.C. District Court dismissed the
remaining drivers’ claims, finding that the federal government
was not subject to the FCRA. That decision is on appeal, No. 195321, and was argued in September 2020. See Courtroom Minutes
of Oral Argument, Owner-Operator Indep. Drivers Ass’n, Inc. v.
U.S. Dep’t of Transp., No. 19-5321 (D.C. Cir. Sept. 9, 2020).

4
of $50,000 per year. Class actions often provide the only
practical solution for a group that lacks a realistic path to
pursue their rights in court individually. See, e.g., Amchem
Products, Inc. v. Windsor, 521 U.S. 591, 617 (1997) (“The
policy at the very core of the class action mechanism is
to overcome the problem that small recoveries do not
provide the incentive for any individual to bring a solo
action prosecuting his or her rights.” (quoting Mace v.
Van Ru Credit Corp., 109 F.3d 338, 344 (1997))). Thus,
resolving whether federal law permits a class action money
judgment based solely on statutory violations directly and
substantially affects OOIDA’s members’ ability to advance
their interests.
The outcome of this case, therefore, impacts OOIDA’s
members in at least two discrete ways. First, the Court’s
ruling could alter OOIDA’s members’ ability to enforce
their rights in court, whether or not this Court accepts
Petitioner’s and supporting amici’s urging to overhaul
this Court’s articulation of Article III standing in Spokeo,
Inc. v. Robins, 136 S. Ct. 1540 (2016). Second, the potential
conflict between the Ninth Circuit below and the D.C.
Circuit in OOIDA I concerning the issues under review
means the Court’s decision could affect a case to which
OOIDA was a party.
BACKGROUND
I.

The Fair Credit Reporting Act protects individuals
from informational and reputational injuries by
imposing procedural requirements on consumer
reporting agencies.

Entire industries have been built on the collection and
sale of personal data, putting at risk millions of individuals’

5
personal, financial, and employment reputations. The data
these entities maintain carry the potential to make or
break individuals when it comes to buying a car or home,
applying for a job, investing in or starting a business,
obtaining insurance coverage, and myriad other major life
events. Both private entities and the federal government
have adopted these reporting systems to serve the
trucking industry.
The Fair Credit Reporting Act, 15 U.S.C. § 1681 et
seq. (“FCRA”), stands as a bulwark against this type of
reputational harm resulting from inaccurate reporting.
See, e.g., Spokeo, 136 S. Ct. at 1550 (“[In enacting the
FCRA] Congress plainly sought to curb the dissemination
of false information by adopting procedures designed
to decrease that risk.”); see also S. Rep. No. 91-517, at
1 (1969) (“The purpose of the fair credit reporting bill
is to prevent consumers from being unjustly damaged
because of inaccurate or arbitrary information in a credit
report.”); Robins v. Spokeo, Inc., 867 F.3d 1108, 1113
(9th Cir. 2017) (“Spokeo III”) (“Congress established the
FCRA provisions at issue to protect consumers’ concrete
interests. We have previously observed that FCRA ‘was
crafted to protect consumers from the transmission of
inaccurate information about them’ in consumer reports.”
(quoting Guimond v. Trans Union Credit Info. Co., 45
F.3d 1329, 1333 (9th Cir. 1995))).
The FCRA’s protections extend beyond credit
reporting. The statute obligates “consumer reporting
agencies” to adopt accuracy-ensuring provisions and
adhere to other procedural requirements with respect
to a breadth of information used by third parties making
credit, employment, insurance, and other decisions. See
15 U.S.C. §§ 1681a(d)(1), 1681b(a). It is primarily with

6
respect to professional reputation and employability that
commercial truck drivers find themselves at the mercy
of reporting agencies. Private and governmental entities
alike collect and distribute driver and carrier data that
inform the contracting decisions of shippers, brokers,
and carriers. Guaranteeing the accuracy of personal
information that hiring entities use every day holds
paramount importance to truckers like the plaintiffs in
OOIDA I.
II. Consumer reporting significantly impacts OOIDA’s
members’ professional opportunities every day.
Independent owner-operators, like many of OOIDA’s
members, are forced to rely on accurate personal reporting
to earn a living. Both governmental and private reporting
agencies sell driver and carrier records to shippers,
carriers, and other entities who are deciding whether to
contract for driver and carrier services. See, e.g., OOIDA
I, 879 F.3d at 341 (noting that entities deciding whether to
hire truck drivers use FMCSA’s PSP reporting system);
see also Owner-Operator Indep. Driver Ass’n, Inc. v.
USIS Commercial Servs., Inc., No. 04CV01384REBCBS,
2006 WL 2164661, at *1 (D. Colo. July 31, 2006) (describing
Drive-A-Check—“DAC”—driver reporting); cf. Maverick
Transp., LLC v. U.S. Dep’t of Lab., Admin. Rev. Bd., 739
F.3d 1149, 1152 & n.1 (8th Cir. 2014), as corrected (Jan.
17, 2014) (describing DAC reporting’s potential effects on
driving hiring). The receiving entities take these reports
seriously—a single safety violation alone can cause a
carrier to terminate or avoid hiring a driver simply to
avoid potential liability in the event of an accident.

7
When these reports contain false information,
OOIDA’s members suffer. The federal government does
driver reporting—FMCSA assembles and sells thousands
of driver reports to motor carriers every month for the
express purpose of informing carriers’ hiring decisions.
See 49 U.S.C. § 31150(a).4 Similarly, carriers buy driver
information from private reporting companies when
making hiring decisions. DAC reports contain driver
information that is gleaned from carriers and packaged
and sold to prospective driver employers. See USIS
Commercial Servs., 2006 WL 2164661, at *1. Drivers suffer
as soon as an inaccuracy exists that could be distributed
on these reports. They must choose between delaying
job opportunities and investing the time, energy, and
resources to dispute and seek correction of the inaccurate
information or suffering the reputational and financial
harm resulting from prospective employers obtaining
an inaccurate report. See, e.g., Corrected Appellants’
Brief at 13-15, OOIDA I, 879 F.3d 339 (D.C. Cir. 2018)
(No. 16-5355), 2017 WL 1361799, *13-15 (describing
numerous steps taken by drivers to attempt to remove
inaccurate records from PSP reports). And countless
small, independent operators rely on financing to purchase
their rigs, financing that depends on accurate reporting.
Truckers’ jobs depend on these consumer reports
being accurate. False reports damage drivers’ and
carriers’ reputations, and the economic impact of this
reputational harm can be difficult to ascertain. See, e.g.,
Spokeo, 136 S. Ct. at 1549 (noting that “tangible injuries
are perhaps easier to recognize” than intangible injuries);
4. FMCSA’s liability under the FCRA is currently at issue
in the D.C. Circuit Court of Appeals. See supra at 3 n.3.

8
cf. Abbott Labs. v. Mead Johnson & Co., 971 F.2d 6, 16
(7th Cir. 1992) (noting that generally “it is virtually
impossible to ascertain the precise economic consequences
of intangible harms, such as damage to reputation and loss
of goodwill”); Register.com, Inc. v. Verio, Inc., 356 F.3d
393, 404 (2d Cir. 2004) (affirming finding of irreparable
harm through “loss of reputation, good will, and business
opportunities”). Carriers and drivers need to be able to
enforce their rights in court before they suffer careerending reputational damage. The FCRA stands as a
particularly important means of protecting commercial
truck drivers’ rights.
SUMMARY OF THE ARGUMENT
Congress gave individuals the tools necessary to
protect their reputations and livelihoods put at risk by
the ever-expanding business of personal data collection
and dissemination. The FCRA demonstrates Congress’s
understanding of the risks that follow from business
practices that fall short of what is required to ensure
accurate consumer reporting. The statute requires
entities who hold individuals’ futures in their hands
to do their level best to report accurately, and it gives
individuals the right to enforce this command.
Independent commercial truck drivers represent a
group of individuals for whom the ability to ensure accurate
reporting could scarcely be more important. Every day,
at multiple points along the interstate transportation
path, shippers, brokers, motor carriers, and others utilize
reporting to inform hiring and contracting decisions.
This Court’s decision in Spokeo, as applied by the Ninth
Circuit below, confirmed that some statutory violations

9
create a risk of harm sufficient to satisfy Article III injury
standards, regardless of whether they cause any additional
harm beyond the violations themselves. Such is the case
for reporting agencies’ violations of FCRA accuracy
procedures, which protect against the reputational harm
Congress sought to prevent with the FCRA. But Petitioner
and amici supporting Petitioner ask this Court to require
individuals to suffer the evils Congress sought to preempt
before they can protect their rights.
This Court should instead affirm the Ninth Circuit’s
straightforward application of Spokeo’s Article III
analysis and hold that statutory violations that create
a material risk of harm, like these reporting agency
violations of the FCRA’s accuracy requirements, cause
an Article III injury.
ARGUMENT
I.

The FCRA establishes demanding procedural
requirements of consumer reporting agencies to
provide expansive protections for individuals from
substantial risk of harm resulting from inaccurate
information.
A.

In enacting the FCRA, Congress intended
to protect consumers by holding consumer
reporting agencies accountable through strict
procedural requirements.

Collecting personal information and distributing
it to companies making hiring and other significant
decisions carries the potential to cause great harm to the
subjects of those reports. The damage done by inaccurate

10
personal data in the hands of persons using these data to
make hiring or credit decisions is self-evident. Congress
recognized as much and set up procedural safeguards to
minimize the risk of the distribution of inaccurate personal
data by the entities who do most of the distributing.
The FCRA requires consumer reporters to do
their (reasonable) best to ensure that their reports
contain accurate information: “Whenever a consumer
reporting agency prepares a consumer report it shall
follow reasonable procedures to assure maximum
possible accuracy of the information concerning the
individual about whom the report relates.” 15 U.S.C.
§ 1681e(b). Congress recognized the potential harm from
inaccurate consumer reporting: it “plainly sought to
curb the dissemination of false information by adopting
procedures designed to decrease that risk.” Spokeo, 136 S.
Ct. at 1550; see also S. Rep. No. 91-517, at 1 (1969) (“The
purpose of the fair credit reporting bill is to prevent
consumers from being unjustly damaged because of
inaccurate or arbitrary information in a credit report.”);
Seamans v. Temple Univ., 744 F.3d 853, 860 (3d Cir. 2014)
(noting that FCRA “‘was crafted to protect consumers
from the transmission of inaccurate information about
them, and to establish credit reporting practices that
utilize accurate, relevant, and current information in a
confidential and responsible manner’” (quoting Cortez
v. Trans Union, LLC, 617 F.3d 688, 706 (3d Cir. 2010)));
Guimond, 45 F.3d at 1333 (“The legislative history of the
FCRA reveals that it was crafted to protect consumers
from the transmission of inaccurate information about
them . . . .”).

11
Congress also apparently recognized that an effective
means to combat inaccurate reporting is to give affected
individuals the right to enforce the procedures reporting
entities employ in preparing reports. 15 U.S.C. § 1681e(b).
Congress could have provided a cause of action for only
the dissemination or disclosure of inaccurate information.
But by that time, the damage is done. Congress gave
individuals a chance to prevent that damage.
The FCRA also imposes strict requirements with
respect to consumer reporting agencies’ disclosures to
consumers. See Ramirez, 951 F.3d at 1029 (describing
disclosure procedures found in 15 U.S.C. § 1681g). The
disclosure provisions at issues here, § 1681g(a) and (c)(2),
aid individuals’ interest in “understanding how to correct
inaccurate information in their credit reports.” See id.
Like the “reasonable procedures” requirements, these
disclosure provisions “go to the core of Congress’s purpose
in enacting the FCRA: ‘to protect consumers from the
transmission of inaccurate information about them.’” Id.
(alteration omitted) (quoting Guimond, 45 F.3d at 1333)).
Thus, Respondent Ramirez and the absent class
members in this case asserted violations of three FCRA
provisions that protect the very interests Congress set
out to safeguard.

12
B. Violations of FCRA accuracy requirements
cause Article III injuries where disclosure
of the inaccurate information could cause
concrete harm.
1.

Statutory violations causing risk of
real harm satisfy Article III’s injury
requirements whether additional, tangible
harm results from the violations.

Congress can define injuries by enacting procedural
requirements intended to protect against such injuries.
See Spokeo, 136 S. Ct. at 1549. And although Congress’s
will to give a class of persons a right to sue, while
informative, does not establish an Article III injury,
Congress is “well positioned to identify intangible harms
that meet Article III requirements.” See id. Thus, its
choice to define an injury is “instructive and important”
and can involve elevating a previously inadequate injury
to an Article III harm. See id. (quoting Lujan v. Defs.
of Wildlife, 504 U.S. 555, 578 (1992)). “[T]o determine
whether a procedural violation manifests injury in fact,
a court properly considers whether Congress conferred
the procedural right in order to protect an individual’s
concrete interests.” Strubel v. Comenity Bank, 842 F.3d
181, 189 (2d Cir. 2016) (citing Lujan, 504 U.S. at 572, and
Summers v. Earth Island Inst., 555 U.S. 488, 496 (2009)).
Thus, the analysis set forth in Spokeo and applied by the
Ninth Circuit below echoes the inquiry advanced in Lujan,
Summers, and this Court’s other injury precedents. See
Spokeo, 136 S. Ct. at 1549 (analyzing Lujan, Summers,
and others).

13
In sum, where Congress protects an interest with
procedural requirements, and that interest is sufficiently
concrete (or violations of the procedural requirements
pose a sufficiently concrete risk of harm), procedural
violations create Article III injuries. Such a plaintiff “need
not allege any additional harm beyond” the statutory
violation. See Spokeo, 136 S. Ct. at 1549. “In short, some
violations of statutorily mandated procedures may entail
the concrete injury necessary for standing.” Strubel, 842
F.3d at 189.
2.

Violations of the FCRA’s accuracy
requirements cause a risk of real harm
to the subjects of the inaccurate data
sufficient for Article III standing.

Congress enacted the FCRA to protect individuals’
concrete interests. The law specifically aims to prevent
against the harm caused by the distribution of inaccurate
personal information. See Spokeo III, 867 F.3d at 111314 (“[G]iven the ubiquity and importance of consumer
reports in modern life—in employment decisions, in loan
applications, in home purchases, and much more—the
real-world implications of material inaccuracies in those
reports seem patent on their face.”); see also Spokeo,
136 S. Ct. at 1550 (“Congress plainly sought to curb the
dissemination of false information by adopting procedures
designed to decrease that risk.”); cf. Safeco Ins. Co. of
Am. v. Burr, 551 U.S. 47, 52 (2007) (“Congress enacted
FCRA in 1970 to ensure fair and accurate credit reporting,
promote efficiency in the banking system, and protect
consumer privacy.”).

14
Violations of the procedural rules designed to
advance reporting accuracy injure individuals in a
concrete and particularized way. Strubel, 842 F.3d at 190
(“[W]e understand Spokeo, and the cases cited therein, to
instruct that an alleged procedural violation can by itself
manifest concrete injury where Congress conferred the
procedural right to protect a plaintiff’s concrete interests
and where the procedural violation presents a ‘risk of
real harm’ to that concrete interest.”); cf. Van Patten v.
Vertical Fitness Group, LLC, 847 F.3d 1037, 1043 (9th Cir.
2017) (recognizing that Telephone Consumer Protection
Act, 47 U.S.C. § 227, established substantive right to
be free from harassing telephone communications and
statutory violations that harmed that right cause Article
III injuries); Dreher v. Experian Info. Sols., Inc., 856 F.3d
337, 346 (4th Cir. 2017) (distinguishing harm resulting
from reporting agency’s misnaming servicing company
from other harms that could affect report accuracy).
Thus, Congress created procedural obligations
that serve to protect against the risk of real harm and
elevated violations of these obligations to the level of
Article III injuries, regardless of whether affected
individuals experienced any additional, tangible harm
from the violations. See Spokeo III, 867 F.3d at 1114; see
also Ramirez, 951 F.3d at 1027 (noting that the FCRA’s
accuracy requirements are “particularly important” due
to risk of harm following from inaccurate data). Individuals
suffer Article III harm when consumer reporting agencies
violate the FCRA’s accuracy requirements in a way that
creates a material risk of harm.

15
C.

Current standing rules, applied by the Ninth
Circuit below, already protect against the
purported flood of frivolous suits cited by
Petitioner and amici supporting Petitioner.

This standard for constitutional injury comports with
Article III’s requirements as expressed in Spokeo and this
Court’s other precedents. It also strikes a balance between
preventing lawsuits based on mere technical statutory
violations and permitting court enforcement for statutory
violations that carry the potential to do real harm to
large swaths of the public. Nonetheless, amici supporting
Petitioner warn this Court that affirming the Ninth Circuit
opens the floodgates to frivolous, “no-injury” litigation.
For example, eBay, Facebook, and Google claim that the
Ninth Circuit’s decision would grant Article III standing
to anyone who can claim a statutory violation. Brief for
Amici Curiae eBay, Inc., Facebook, Inc., Google LLC,
Computer & Communications Industry Association,
The Internet Association, and Technology Network
Supporting Petitioner (“eBay Brief”) at 6 (arguing that
Ninth Circuit’s decision gives standing to anyone who has
a statutory cause of action);cf. Brief for the Chamber of
Commerce of the United States of America & National
Federation of Independent Business as Amici Curiae in
Support of Petition at 2-3 (asserting that “businesses will
find themselves mired in massive lawsuits over alleged
technical statutory violations that have not caused actual
harm to the vast majority of the class”). But this supposed
cautionary tale ignores the analysis and facts of both the
decision below and this Court’s Spokeo opinion.
The Spokeo decision foresaw and specif ically
preempted this concern. This Court took great pains to

16
preclude frivolous suits based on mere statutory violations
by ensuring that only some procedural violations cause
Article III injuries. Spokeo requires courts to examine
the violation involved to determine if that violation causes
Article III harm:
Congress’ role in identifying and elevating
intangible harms does not mean that a plaintiff
automatically satisfies the injury-in-fact
requirement whenever a statute grants a person
a statutory right and purports to authorize that
person to sue to vindicate that right. Article III
standing requires a concrete injury even in the
context of a statutory violation. . . . This does
not mean, however, that the risk of real harm
cannot satisfy the requirement of concreteness.
. . . Just as the common law permitted suit in
such instances, the violation of a procedural
right granted by statute can be sufficient in
some circumstances to constitute injury in fact.
In other words, a plaintiff in such a case need
not allege any additional harm beyond the one
Congress has identified.
Spokeo, 136 S. Ct. at 1549; see also id. at 1550 (“A violation
of one of the FCRA’s procedural requirements may result
in no harm.”).
Thus, Spokeo specifically contemplated that some
statutory violations, in and of themselves, would cause
Article III injuries and some would not. See id. at 1549-50;
see also Strubel, 842 F.3d at 189 (“We do not understand
Spokeo categorically to have precluded violations of
statutorily mandated procedures from qualifying as

17
concrete injuries supporting standing. Indeed, if that had
been the Court’s ruling, it would not have remanded the
case for further consideration of whether the particular
procedural violations alleged ‘entail a degree of risk
sufficient to meet the concreteness requirement’ as
clarified in Spokeo.” (quoting Spokeo, 136 S. Ct. at 1550)).
Thus, the decision below applies Spokeo’s strictures
and demonstrates how the standard resolves concerns
about relatively innocuous statutory violations leading to
unwarranted class action suits.
Applying Spokeo, the Ninth Circuit did not find
that every FCRA violation caused Article III harm. See
Ramirez, 951 F.3d at 1026. Rather, the court noted that, in
contrast to a mere zip code inaccuracy, Spokeo, 136 S. Ct.
at 1550, TransUnion “inaccurately identified and labeled
all class members as potential terrorists, drug traffickers,
and other threats to national security.” Id. This “severe”
inaccuracy, combined with the potential for instantaneous
dissemination to third parties, carried with it the risk
of causing the type of harm Congress sought to prevent
with the FCRA. Id. (noting that risk of harm here was
“far graver” than even the inaccurate age, marital status,
education, and wealth information at issue in Spokeo).
Reporting entities may not be mislabeling drivers as
national security threats, but driver reporting inaccuracies
can greatly diminish drivers’ economic opportunities, if
not end their careers. The plaintiffs in OOIDA I alleged
that their driver reports falsely stated that the drivers
had violated safety regulations. Owner-Operator Indep.
Drivers Ass’n, Inc. v. U.S. Dep’t of Transp., 211 F. Supp.
3d 252, 256-57 (D.D.C. 2016), aff’d in part, rev’d in
part, 879 F.3d 339 (D.C. Cir. 2018). Carriers and other

18
driver employers use these reports to decide whether to
hire drivers; an inaccurate report of a safety violation
seriously jeopardizes a driver’s ability to get a job.
At the root of amici’s argument in support of Petitioner,
therefore, lies a resistance to being held accountable under
essential consumer protection regimes, like the FCRA,
that serve to protect against the harm caused by the
pervasive use and sale of individuals’ personal data as a
business model. See, e.g., Campbell v. Facebook, Inc., 951
F.3d 1106, 1112 (9th Cir. 2020) (approving settlement of
class action challenging Facebook’s practice of collecting
data from private messages); see also In re Facebook,
Inc. Internet Tracking Litig., 956 F.3d 589, 596 (9th Cir.
2020) (describing Facebook’s compiling users’ browsing
histories to generate revenue); In re Google Inc. Cookie
Placement Consumer Priv. Litig., 806 F.3d 125, 132
(3d Cir. 2015) (describing Google’s and other companies’
practice of placing cookies despite users’ attempts to
block cookies’ data collection). The FCRA is not a new
law: entities have been required to adopt reasonable
procedures to ensure maximum possible accuracy of
consumer reports since 1970. See Pub. L. No. 91-508
§ 607(b), 84 Stat. 1131 (1970). These companies entered (if
not created) the marketplace of personal data, and that
marketplace is governed by consumer protection regimes
like the FCRA that give individuals the right to protect
their concrete interests in court.
The standard for evaluating concreteness in statutory
violation cases, as expressed in Spokeo and applied below,
sorts the purportedly frivolous suits from the cases where
there is real risk of harm. TransUnion’s records, ready
to be distributed at a moment’s notice to third parties

19
making credit, employment, and other important life
decisions, inaccurately identified thousands of individuals
as potential national security threats with whom the third
parties should not transact.
Opening the courthouse doors to protect individuals
from being falsely identified as terrorists and drug
traffickers comports with this Court’s precedent, advances
the interests Congress sought to protect with the FCRA,
and makes sense as a tool to combat the damage wrought
by billion-dollar companies’ profiting from the personal
data of millions of individuals.
II. Truck drivers are particularly vulnerable to harm
from false reporting.
A.

Truck drivers are exposed to personal reporting
on a near-daily basis.

Personal reporting plays an outsized role in the
professional lives of the nation’s truck drivers. Whether
an independent motor carrier seeking a load to haul from
a broker or shipper or a driver trying to haul loads for a
motor carrier, individual truckers are forced to rely on
fair and accurate reporting to obtain work.
Shippers, brokers, and motor carriers, entities who
contract for the carriers’ and drivers’ services, regularly
use reporting services to inform their decisions. These
systems include government and private reporting.
FMCSA sells driver reports to carriers making hiring
decisions through the Pre-employment Screening
Program (“PSP”). See 49 U.S.C. § 31150(a). These reports
contain driver inspection and crash data collected from

20
federal, state, and local inspection entities throughout the
United States. See, e.g., OOIDA I, 879 F.3d at 341 (noting
that entities deciding whether to hire truck drivers use
FMCSA’s PSP reporting system).
Trucking companies also use private reporting like
Drive-A-Check (“DAC”) reports to evaluate prospective
drivers. See, e.g., DAC Employment History File,
HireRight, https://www.hireright.com/transportation/
solutions/verifications/dac-report-employment-historyfile (last visited March 7, 2021) (“With one easy-to-read
report, prospective employers will be able to quickly and
efficiently determine if an applicant has a safe driving
record and meets their hiring standards.”); see also
USIS Commercial Servs., Inc., 2006 WL 2164661, at *1
(describing DAC driver reporting). The accuracy of DAC
reports is essential to drivers’ ability to make a living. See,
e.g., Maverick Transp., 739 F.3d at 1152 & n.1 (describing
DAC reporting’s potential effects on driving hiring). False
negative information in these reports can be devastating.
See id. at 1152 (“An abandonment notation has a negative
effect on a driver’s ability to be hired and some employers
refuse to hire drivers who have an abandonment notation
in their DAC report.”). And many carriers have adopted
the approach that a single safety violation is grounds for
refusing to hire a driver, based solely on the carrier’s wish
to avoid liability for a future accident.
The nature of the trucking industry means that
thousands of independent truck drivers and carriers enter
into agreements with shippers, brokers, and agreements
every day. These shippers, brokers, and carriers use
government and private reporting to decide which
drivers and carriers to hire. When these reports contain

21
inaccurate information, truckers suffer a variety of harms
that are difficult to ascertain. See Spokeo III, 867 F.3d at
1115 (noting that the FCRA protects against intangible
harms to reputational and privacy interests). Few carriers
report to drivers when they choose to not hire a driver
based on a DAC or PSP report. 5 And drivers and carriers
who know their reports contain inaccurate information
may refrain from applying to jobs altogether, instead
delaying action until they complete the often-months-long
process of correcting their records. See, e.g., Todd Dills
& Max Heine, Red tape, deaf ears: Criticism mounts
of DataQs crash- and inspection-info review system,
Overdrive (Feb. 15, 2021), https://www.overdriveonline.
com/regulations/article/15063803/criticism-of-dataqsreview-system-continues-to-rise (describing drivers’ and
carriers’ experiences attempting to correct inaccurate
records in government reporting systems). Limiting
judicial accountability can only serve to exacerbate these
issues, and by the time a false negative report is actually
distributed to a third party, the damage sought to be
prevented by the FCRA is done.

5. The FCRA requires decisionmakers who take adverse
action based on a consumer report to inform the consumer.
See 15 U.S.C. § 1681m. But in the trucking industry, carriers
seldom satisfy that requirement, making it difficult for drivers
to determine the negative consequences of inaccurate reports.
See, e.g., Eric Miller, Settlement Puts Spotlight on Background
Checks, Transport Topics (June 16, 2014, 1:30 AM), https://www.
ttnews.com/articles/settlement-puts-spotlight-background-checks
(describing lack of adverse action notices in trucking industry).

22
B. Adopting Petitioner’s inter pretation of
standing under the FCRA— closing the
courts until reports are distributed—would
undermine the statute’s very purpose.
Because truckers’ livelihoods depend on accurate
consumer reporting, they face precisely the type of injury
Congress sought to prevent. The statute’s plain language
expressly demonstrates Congress’s desire to ensure
consumer reporting accuracy:
It is the purpose of this subchapter to require that
consumer reporting agencies adopt reasonable
procedures for meeting the needs of commerce
for consumer credit, personnel, insurance, and
other information in a manner which is fair and
equitable to the consumer, with regard to the
confidentiality, accuracy, relevancy, and proper
utilization of such information in accordance
with the requirements of this subchapter.
15 U.S.C. § 1681(b); S. Rep. No. 91-517, at 1 (1969) (“The
purpose of the fair credit reporting bill is to prevent
consumers from being unjustly damaged because of
inaccurate or arbitrary information in a credit report.”
(emphasis added)); cf. § 1681(a) (noting that “banking
system is dependent upon fair and accurate credit
reporting”). This Court has unambiguously recognized
the role of reporting accuracy in Congress’s passing the
FCRA: “Congress plainly sought to curb the dissemination
of false information by adopting procedures designed to
decrease that risk.” Spokeo, 136 S. Ct. at 1550.

23
Requiring individuals to wait until reporting agencies’
systemic accuracy failures manifest in inaccurate reports
actually distributed to third parties undermines reporting
generally and carries the risk of far-reaching reputational
injuries. Congress’s goal of ensuring accurate reporting
is better advanced if individuals can sue to enforce the
FCRA’s obligations when accuracy violations that put
individuals at a real risk of harm are discovered, not
when the damage is already done. Widescale procedural
deficiencies put thousands at risk, as demonstrated by
the case below and Congress’s emphasis on procedural
safeguards.
Petitioner and supporting amici would prefer that a
person be stopped at the courthouse steps until reporting
entities complete the process of falsely informing
employers, lenders, and other decisionmakers that
the person is a terrorist—or an unsafe truck driver.
This argument fails in logic and reason. Congress, by
specifically requiring various prophylactic procedures
and providing a cause of action for their violations, sought
to prevent intangible reputational injuries before they
occurred. Requiring individuals to suffer these harms
ignores common sense. Accordingly, the Ninth Circuit
declined to require individuals to wait. Instead, the court
sensibly confirmed that Congress’s FCRA goals were
advanced by giving individuals access to federal courts
when entities’ violations created real risk of harm.
Without this access, even truckers who discover
wide-spread FCRA violations that negatively impact the
accuracy of reports that they count on everyday could
not motivate the reporting entities to fix their shoddy
practices until it was too late. That is simply not what
Congress intended in adopting the FCRA.

24
III. Additional consequential harm suffered by one
class member does not preclude Rule 23 typicality
when the class suffers Article III injuries from
statutory violations.
The Ninth Circuit held that violations of the FCRA’s
accuracy requirements create Article III injuries without
a showing of additional harm and without a showing that
inaccurate records were distributed to third parties.
See Ramirez, 951 F.3d at 1025-26. In so holding, the
Ninth Circuit correctly applied this Court’s Article III
standards, and individuals suffer injury in the form of
a material risk of harm stemming from the statutory
violations. See supra Part I; see also Brief for the United
States as Amicus Curiae Supporting Neither Party at
15-16.
Apart from the question of concrete Article III
injury, Petitioner and several supporting amici argue
separately that the Ninth Circuit erred because the class
of individuals represented by Ramirez did not suffer
injuries sufficiently typical to satisfy the standards of
Federal Rule of Civil Procedure 23. See, e.g., Brief for
Petitioner at 43-46; eBay Brief at 19-20. Because only Mr.
Ramirez was shown to have suffered additional tangible
injuries beyond the Article III harm he and the rest of
the class suffered as a result of TransUnion’s FCRA
violations, Petitioner argues that the class’s injuries don’t
meet typicality requirements.
But Mr. Ramirez’s failure to receive credit, cancellation
of his international trip, and embarrassment did not serve
as the “injuries” he shared with the class and which
provided the basis for certification. See, e.g., Brief for

25
Respondent at 38-39. Rather, the class’s FCRA injuries
occurred when the statute was violated in a way that
created a substantial risk of harm. See, e.g., Ramirez,
951 F.3d at 1028. The jury awarded statutory damages
for TransUnion’s “severe” FCRA violations, not as
compensation for specific economic harms suffered by
class members:
[T]he ju r y ’s awa rd—which falls w ithin
the statutory range—is proportionate to
TransUnion’s offenses and reasonable in light
of the evidence. Indeed, if we were to envision
a case that might warrant the high end of the
statutory-damages range, we might envision
something like this case. TransUnion recklessly
labeled thousands of consumers as potential
terrorists and other sanctioned individuals
without taking even basic steps to verify the
accuracy of these labels. And then it hid the
ball from these consumers when they asked for
their files and withheld important information
about their right to dispute the labels
Ramirez, 951 F.3d at 1035. Thus, Ramirez’s suffering
additional consequential harms does not render his injury
atypical. Indeed, the class members’ injuries supporting
their claims are identical—they all suffered the same risk
of harm from TransUnion’s procedural violations.6
6. Respondent might have argued that individuals for whom
inaccurate credit reports were distributed and those whose
reports were not distributed suffered different injuries, requiring
two subclasses and/or potentially different damage awards.
TransUnion declined the district court’s invitation to follow this
approach. See Ramirez, 951 F.3d at 1033 n.14. And in any event,
both injuries satisfy Article III standards.

26
Petitioner’s complaints about typicality are, therefore,
more appropriately framed in terms of damages evidence.
Cf. Brief for the United States as Amicus Curiae
Supporting Neither Party at 31-32 (observing that jury,
in determining amount of statutory damages, might
erroneously consider evidence of additional harm suffered
by unique plaintiff). Had the jury awarded $984.22 as
an economic measure of the unique, consequential harm
Ramirez suffered, it might have inappropriately measured
damages for the class. But as both the Ninth Circuit
and the district court found, the statutory damages
awarded by the jury were consistent with the severity
of TransUnion’s three FCRA violations. Ramirez, 951
F.3d at 1035; see also Ramirez v. Trans Union, LLC, No.
12-CV-00632-JSC, 2017 WL 5153280, at *6 (N.D. Cal. Nov.
7, 2017), aff’d in part, vacated in part, rev’d in part sub
nom. Ramirez v. TransUnion LLC, 951 F.3d 1008 (9th Cir.
2020) (refusing to reduce jury’s statutory damages award
due to the “evidence regarding Trans Union’s practices”).7
The statutory damages award, just like the class-wide
Article III injuries, were based on TransUnion’s FCRA
violations, not Ramirez’s consequential damages.
Like Ramirez and countless other individuals,
commercial truckers face the potential for grave harm
from FCRA violations. For instance, drivers with
inaccurate information on their PSP reports face the
choice of: (1) applying for jobs and risking the negative
reputational consequences; or (2) postponing employment
7. TransUnion did not accept the district court’s suggestion
to modify the jury verdict form to allow different damage awards
for members for whom inaccurate credit reports were distributed
and those whose reports were not distributed. See Ramirez, 951
F.3d at 1033 n.14.

27
until they complete the gauntlet of state and federal
administrative and/or judicial steps to correct the report.
See, e.g., Corrected Appellants’ Brief at 13-15, OOIDA
I, 879 F.3d 339 (D.C. Cir. 2018) (No. 16-5355), 2017 WL
1361799, *13-15 (describing numerous steps taken by
drivers to attempt to remove inaccurate records from
PSP reports). These drivers, like other individuals
subject to FCRA reporting, suffer harm when inaccurate
information is at risk of dissemination.
The potential for inaccurate reporting is inherently
disruptive: It causes individuals to make impossible
decisions: cancel family vacations or risk being detained at
an airport; reorganize important purchases or face public
embarrassment; postpone employment indefinitely or ruin
professional reputation. The Ninth Circuit’s application of
Spokeo recognizes this reality and opens the courthouse
doors to individuals seeking to preempt these harms that
Congress has deemed worthy of protection.
CONCLUSION
In passing regimes like the FCRA, Congress
recognized that the protection of individuals’ rights often
starts with procedure. This Court should affirm the Ninth
Circuit’s decision and hold that (1) FCRA procedural
violations that create a real risk of harm to the interests
the FCRA protects, like TransUnion’s here, cause Article
III injuries without a showing of additional harm; and
(2) Rule 23’s typicality requirement is satisfied where
statutory procedural violations cause Article III injuries
to class members, regardless of whether they suffered
different or no additional harm.

28
Respectfully submitted,
Charles R. Stinson
Counsel of Record
Paul D. Cullen, Jr.
Gregory R. Reed
The Cullen Law Firm, PLLC
1101 30th Street NW, Suite 300
Washington, D.C. 20007
(202) 944-8600
crs@cullenlaw.com
Counsel for Owner-Operator
Independent Drivers
Association, Inc.
March 10, 2021

